Aj

I"2UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6441

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ALIMAMY BARRIE,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. T.S. Ellis, III, Senior District Judge. (l:ll-cr-00476-TSE-l)
Submitted: July 21, 2020
Before AGEE, DIAZ, and HARRIS, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Alimamy Barrie, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Decided: July 24, 2020

e/iJi Y Aj fyftt Q-

PER CURIAM:
Alimamy Barrie appeals the district court’s order denying his 18 U.S.C.
§ 3582(c)(2) (2018) motion for a sentence reduction and his motion to vacate the restitution
order relating to his conviction for conspiracy to commit wire and mail fraud. We have
reviewed the record and find no reversible error. Accordingly, we affirm for the reasons
stated by the district court. United States v. Barrie, No. 1:1 l-cr-00476-TSE-l (E.D. Va.
filed Mar. 16, 2020; entered Mar. 17, 2020). We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

Afpe/iJi* 3/ $£)£ 3

^

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
)
)
)
)
)
)

UNITED STATES OF AMERICA
v.

alimamy barrie

Criminal No. ll-CR-476

ORDER
This nutter comes before the Cow on Defends Alimemy Bertie's motion to vacate
restitution and motion for resentencing. The government has filed oppositions to both of
otions and the matter is thus ripe tor disposition. Orel argument is dispensed with
defendant’s m
as the facts and legal contentions ere adequately set forth in the existing record and oral
argument would not aid the decisional process.
I.
On March 31, 2011, a criminal complaint was filed against defendant alleging that
another person’s identity and used that stolen identity to steal funds from the
defendant stole
victim's tuck account. See Crimitul Complaint (Dkt 1). On October 3,2011, purstunt to a plea
agreement; defendant wived indictment and pled guilty to a one-count criminal information
charging him with conspiracy to commit wire and mail fraud t in violation of 18 U.S.C. § 1349.
See Criminal Infomution (Dkt 22); Plea Agreement (Dkt 24). In his statement of facts, defendant
admitfed to conspiring with the victim's nurse to steal the victim's identity. See Statement of Facts
victim was a retired man incapacitated by Huntington's disease and defendant
^ 3 (Dkt. 25). The
used the victim's infcmarion to obtain appmxinutely $593,171.45 from the victim's retirement
accounts. See id. 2.

JppeJi* B\

4

As part of the plea agreement, defendant agreed to a 14-level offense level enhancement
pursuant to § 2B1.1(b)(1) for losses and intended losses of at least $400,000, but less than
$1,000,000, and to a 2-level offense level enhancement pursuant to § 2B1.1 (b)(10)(A) and (C) for
relocating the scheme to another jurisdiction to evade detection and sophisticated means . See Plea
Agreement at ^ 5- Defendant also agreed, pursuant to the plea agreement, that restitution was
mandatory in the full amount Of the victim’s losses pursuant to the Mandatory Victim Restitution
Act, 18 U.S.C. § 3663A (the WRA’O, wnich he agreed was
$476,038.83. See Plea Agreement f 10. On January 27, 2012, the Honorable Gerald Bruce Lee
sentenced defendant to 48 months of incarceration, within the Guidelines range of 41-51 months,
as well as a three-year term of supervised release and restitution of $476,038.83.' See Judgment
in a Criminal Case (Dkt. 40).
11.
To begin with, defendant seeks to have his sentenced reduced based on a change in
intervening law, specifically Amendments 791, 792, and 794 to the United States Sentencing
Guidelines (the “Guidelines”)

Amendment was issued on November 1,2015. Amendment

791 adjusted the monetary table for § 2Bl.l(bK')<° ““O'"
UjL,! dm ijMihtiiAOT>»r''rr frit
chang
$550,000,

taflaUo" and’ ** w'icabte here.

for 9 K-fe'd enhancement from $400,000 to

Amendment 792 amended § 2BU(b)(10)(C) to add that aa offense involved

sophisticated means “and the defendant intentionally engaged in or caused the conduct constituting

'

defendant

wmbM j^r^vatt^itodty theft* Swefaheailrwerv.

AfpwJiy S i

t 5

sophisticated means.” U.S.S.G., App. C, amend. 792, at 111. Amendment 794 clarified the
circumstances under which a defendant may be entitled to a mitigating role reduction.
Defendant must rely on 18 U.S.C. § 3582(cX2) to obtain a reduction based on these
Amendments. The problem for defendant is that the Guidelines designate which amendments are
retroactively applicable for § 3582(c)(2) motions, and none of the amendments defendant relies on
are designated in the Guidelines as retroactive. Section 1B1.10. which governs sentence reductions
under §, 3582(c)(2), provides that where “the guideline range applicable to that defendant aas
subsequently been lowered as a result of an amendment to the Guidelines Manual listed in
subsection (d) Mow, the court may reduce the defendant’s term of imprisonment” under §
3582(c)(2). U.S.S.G. § lB1.10(a)(l) (2015) (emphasis added).2 The commentary to § 1BU0
similarly states that ie)ligibility for consideration under 18 U.S.C. § 3582(c)(2) is triggered only
by an amendment listed in subsection (d) that lowers the applicable guideline range. ” U.S.S.G. §
1B1.10 cmt. n.2 (2016). None of the amendments defendant cites—Amendments 791,792, and
794—is listed under subsection (d), and as a result defendant is not entitled to claim the benefit of
to amendments in his § 3582(c)(2) motion. See id. § lB1.10(d). The result reached here - that
defendant may not rely on the non-retroactive Amendments to the Guidelines -finds firm support
•I
, is

f

■

Atd

v.

Memti, 671 F. App’K 67,68 (4th Cir. 2016) (“Amendment 794 cannot .be $vmt«troactive,cffi5et
in a § 3582(c)(2) proceeding”); United States v. Akhter.lM f. Supp. 3df6f, 469-71 (5.D. Va.
2017) (denying retroactive application of Amendments 791, 792, and 794); firsrrfev 2017 WL

’**7,
amendment^) to the guiiidtoiss tist&twsubxeetloia

had been in effect at the time the defendasitwaa sentenced.
OSSgI 1B1 lC0»m (2014) (emphasis added). Nothing in § 1BI.10 distinguishes betwsea substant.ve^d

6048223 at *1 (denying this defendant's claim that Amendments 791, 792, and 794 should apply
to him).3 Accordingly, defendant is not entitled to have his sentenced reduced pursuant to those
Amendments and his motion must be denied.4
IIL
Defendant next argues that the restitution order entered in this case should be vacated,
because the victim has passed away. Defendant cites no statute or other authority for the
proposition that the restitution order entered on January £7, 2012 may be vacated or otherwise
mo dified. A review of the MVRA and associated case law demonstrates that the restitution order
should not be vacated and thus defendant’s motion in this regard must be denied.
To begin with, he MVRA requires that a district court “shall order. .. that the defendant
make restitution to the vietim[s) of the offense” upon conviction and, as the Fourth Circuit has
held, removed discretion from district courts to order restitution in an ampunt less than the foil
amount ofthe victim's losses. See 18 U.S.C. § 3663A(aXl); United States v. Roper, 462 F.3d336,
340 (4th Cir. 2006) (noting that, outside limited circumstances, “no statutory authority provides
district courts the power to remit restitution orders imposed under the MVRA”). Defendant has
pointed to no statute or authority establishing that the victim’s death ends defendant’s obligation

No. 12-C&95.2016 WL
2016) (denying retroactive application of Amendments 791 and 792); Untied States v. Kimble. 13-CR
WL 5841970 at "2 <D. Md. Nov. 8.2018) (denying retroactive Application Of 791).

SSffSSSil i£“ti 1.^SSM.171.45.

«Dte2S). W

it appears that even under Amendment 792, defendant would still qualify for a sophisticated
bsSdon his methods of stealing and using the victim’s ir.fomiation. See Statement cf Faete. Finally, defendant has

•r

•.

not be modified unless expressly permitted by statute. Sec Veiled States * Bram*.Sey.564 F‘
App’x 28,29 (4tb Cir. 2014) (“A sentence imposing restitution is a final judgment that may not be
modified absent one of several enumerated statutory exceptions. ’) . The MVRA does not itself
462 F.3d at 339 (“[WJe believe the terms of the MVRA
create such an exception. See Roper, 4
remit a roandatorily imposed restitution order.”). That
clearly dictate that a district court cannot
the victim bus passed docs not dang. 0ns conclusion Sac It O.S.C. § 3063A(.)(,) (pmviding
, ilie victim is deeded, to the victim v'es/nfa lOTpliasis 'aiHca)).
for restitution to victim or
* Althoul no court appears to have addressed this ptecise scenario, courts bave held that restitution
obligations may pass to a victim’s successor.. *
To find that defendant could avoid Ms restitution obligation following the victim’s death,
&

would greatly undermine Ac “rehabilitative a* retributive purposes” of restitution, UMetl State*
201 F.3d 320.328 (4th Cir. 2000). Such a holding would only encourage defendants to
V. Korem
prey on vulnerable populations, namely Ore ill or the elderly, in the hopes dud they could avoid
by simply waiting for their victims to die. Moreover, it would be
any restitution obligation
ao^ous to hold that @e ***« «<* «"« •«*—
*** *» *“*’*
udten'the Fourth Cireuit has heid that such an ohUgmion does not and even upon fire
> •- ft

i»

2ft"'(boldb* - even

vvfeen a “prison sentenoc abates] as & result of his death pending appeal.
survives" (emphasis added)).

>

PtyyeAJiY 3)

■

^

In sum, tore is no statutory or «<e authority providing that a restitution order may be

vacated or remitted upon the victim's death. Moreover; it would be inappropriate to reduce
defendant's restitution obligation where defendant preyed on a vulnerable victim, has made only
minimal payments ($725) on a large restitution obligation ($475,038.83), and had only to wart for
the victim to die. Accordingly, defendant’s motion must be denied.
That defendant’ s restitution obligations are not vacated in light of the victim’s death., begs
the question to whom should defendant’s payments be directed . Under the terms of the restitution
to be made to the Clerk of the Court and then distributed to the victim. See
order, till payments are
Restitution Order (Dkt, 43). Although the government refers generally to the victim's “heirs, the
mmeht does not identify any specific heir to whom restitution payments should bedistributed.

govs

Response at 4 (Dkt. 69). Defendant’s motion suggests that the victim died intestate and that an
attorney has been appointed to act as a conservator of the estate . See Motion at 2. Since the victim
. .

is now deceased, the government is directed to advise the Court promptly to whom or to what
entity the restitution payments should be disbursed.
Accordingly,
ORDERED that defendant’s motion to reduce sentence (Dkt 54) is DENIED.
Ji is hereby
vacate restthtticn (E&t 61> is
'-•••

denied,

\c

'•

*

:

•

•?,

. ...

It is further ORDERED that the government is DIRECTED to advise the Court promptly
as

to whom or to what entity restitution paymentsshould be disbursed in light offthe victim’s death.
To appeal this decision, defendant must file a written Notice of Appeal with the

Clerk of this court within fourteen (14) days ofreceipt of this Order Failure to file a timely
Notice of Appeal waives the right to appeal.

'Aftf?£A(ii t B '| Pfi^t ^

The

Clerk ofCourt b directed to send a copy ofthis Order all counsel ofresold and to defendant

at his last knowraddress.
Alexandria, VA
March 16,2020
/

T.S. Ellis, BOt
United States District Jndge

